                                                                                                                'I
                                                                                                                 I.




                                                  NATIONAL SCIENCE FOUNDATION 

                                                   OFFICE OF INSPECTOR GENERAL 

                                                     OFFICE OF INVESTIGATIONS 


                                            CLOSEOUT MEMORANDUM

 Case Number: 1-10-06-0025                                                                    Page 1 ofl



          OIG received information that a newspaper in Texas l ran a story reporting that a 4th grader won a
          national science fair hosted by NSF. The story was accompanied by a photo of the student, her
          fathe?, and her principal 3 • The student was holding a trophy, a medal, and a plaque allegedly
          from NSF. In addition, the story reported that the girl received a letter of congratulations on NSF
          letterhead, reflecting the NSF seal, stating she had won an all expenses paid trip to Space Camp .
        . Investigation revealed that NSF does not host a national science fair.

         The father was interviewed. and admitted to having created the letter allegedly
                           ~                                                            .
                                                                                          from NSF. He
         stated he electronically copied and pasted the logo from the NSF website to create the letter. He
         further stated he made up the NSF letter and ordered a trophy, medal, and plaque to honor his
         daughter for ajob well done on her school science project. The principal stated she called the
         local newspaper to report the story when the student brought her trophy into school because the
         principal had no reason to believe it was not true. The father stated he was 'trying to do
         something nice for his daughter and never intended the pUblicity. The father provided OIG with
         a copy of an email he sent to the publisher of the newspaper that initially reported the story,
         admitting to having created the "hoax." The newspaper subsequently published a follow-up
         article entitled "Father says he is sorry for science fair hoax."

          This matter was referred to the U.S. Attorney's Office for the Southern District of Texas and was
        . declined for criminal prosecution.

         Accordingly, this investigation is closed.




NSF OIG Form 2 (11102)
